<html>
<title> - NOMINATION OF MARK P. WETJEN, OF NEVADA, TO BE A COMMISSIONER OF THE COMMODITY FUTURES TRADING COMMISSION</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]



 
                     NOMINATION OF MARK P. WETJEN,
                   OF NEVADA, TO BE A COMMISSIONER
              OF THE COMMODITY FUTURES TRADING COMMISSION

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                         NUTRITION AND FORESTRY

                          UNITED STATES SENATE


                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION


                               __________

                             JULY 21, 2011

                               __________

                       Printed for the use of the
            Committee on Agriculture, Nutrition and Forestry


        Available via the World Wide Web: http://www.fdsys.gov/



                  U.S. GOVERNMENT PRINTING OFFICE
71-633                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



            COMMITTEE ON AGRICULTURE, NUTRITION AND FORESTRY



                 DEBBIE STABENOW, Michigan, Chairwoman

PATRICK J. LEAHY, Vermont            PAT ROBERTS, Kansas
TOM HARKIN, Iowa                     RICHARD G. LUGAR, Indiana
KENT CONRAD, North Dakota            THAD COCHRAN, Mississippi
MAX BAUCUS, Montana                  MITCH McCONNELL, Kentucky
E. BENJAMIN NELSON, Nebraska         SAXBY CHAMBLISS, Georgia
SHERROD BROWN, Ohio                  MIKE JOHANNS, Nebraska
ROBERT P. CASEY, Jr., Pennsylvania   JOHN BOOZMAN, Arkansas
AMY KLOBUCHAR, Minnesota             CHARLES E. GRASSLEY, Iowa
MICHAEL BENNET, Colorado             JOHN THUNE, South Dakota
KIRSTEN GILLIBRAND, New York         JOHN HOEVEN, North Dakota

             Christopher J. Adamo, Majority Staff Director

              Jonathan W. Coppess, Majority Chief Counsel

                    Jessica L. Williams, Chief Clerk

              Michael J. Seyfert, Minority Staff Director

                Anne C. Hazlett, Minority Chief Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Nomination of Mark P. Wetjen, of Nevada, to be a Commissioner of 
  the Commodity Futures Trading Commission.......................     1

                              ----------                              

                        Thursday, July 21, 2011
                    STATEMENTS PRESENTED BY SENATORS

Stabenow, Hon. Debbie, U.S. Senator from the State of Michigan, 
  Chairwoman, Committee on Agriculture, Nutrition and Forestry...     1
Roberts, Hon. Pat, U.S. Senator from the State of Kansas.........     3
Introduction of Mark P. Wetjen, of Nevada, Nominated to be a 
  Commissioner of the Commodity Futures Trading Commission, by 
  Hon. Harry Reid, a U.S. Senator from the State of Nevada.......     2

                                Witness

Wetjen, Mark P., of Nevada, nominated to be a Commissioner of the 
  Commodity Futures Trading Commission...........................     5
                              ----------                              

                                APPENDIX

Prepared Statements:
    Chambliss, Hon. Saxby........................................    22
    Wetjen, Mark P...............................................    24
Document(s) Submitted for the Record:
Landrieu, Hon. Mary L.:
    Written letter of support for Mark Wetjen, of Nevada to be a 
      Commissioner of the Commodity Futures Trading Commission...    30
Written letter of support for Mark Wetjen, of Nevada to be a 
  Commissioner of the Commodity Futures Trading Commission, U.S. 
  Chamber of Commerce............................................    31
Question and Answer:
Roberts, Hon. Pat:
    Written questions to Mark P. Wetjen..........................    41
Thune, Hon. John:
    Written questions to Mark P. Wetjen..........................    34
Grassley, Hon. Charles:
    Written questions to Mark P. Wetjen..........................    37
Nelson, Hon. E. Benjamin:
    Written questions to Mark P. Wetjen..........................    38
Wetjen, Mark P.:
    Written response to questions from Hon. John Thune...........    34
    Written response to questions from Hon. Charles Grassley.....    37
    Written response to questions from Hon. E. Benjamin Nelson...    38
    Written response to questions from Hon. Pat Roberts..........    41



                     NOMINATION OF MARK P. WETJEN,



                    OF NEVADA, TO BE A COMMISSIONER



                   OF THE COMMODITY FUTURES TRADING



                              COMMISSION
                              ----------                              


                        Thursday, July 21, 2011

                              United States Senate,
          Committee on Agriculture, Nutrition and Forestry,
                                                     Washington, DC
    The committee met, pursuant to notice, at 10:08 a.m., in 
Room G-50, Dirksen Senate Office Building, Hon. Debbie 
Stabenow, Chairwoman of the committee, presiding.
    Present or submitting a statement: Senators Stabenow, 
Nelson, Klobuchar, Roberts, Lugar, Boozman, and Thune.

STATEMENT OF HON. DEBBIE STABENOW, U.S. SENATOR FROM THE STATE 
 OF MICHIGAN, CHAIRWOMAN, COMMITTEE ON AGRICULTURE, NUTRITION 
                          AND FORESTRY

    Chairwoman Stabenow. Well, good morning and thank you for 
being here today. The Senate Committee on Agriculture, 
Nutrition, and Forestry will come to order.
    Today, the committee will consider the nomination of Mark 
Wetjen to serve a five-term member, Commissioner, of the 
Commodity Futures Trading Commission. Mr. Wetjen, we are very 
glad to have you. Congratulations on your nomination. We extend 
a warm welcome to you and your family and friends that are here 
today, particularly your wife, Nicole, your son, Cullen, 
mother, Sheila, and brother, Sean. So welcome to all of you. We 
are very glad to have you here and I am sure you are very proud 
of Mark.
    I also want to take a moment to give a special welcome and 
thank you to Commissioner Mike Dunn, who is here with us today. 
Commissioner Dunn, we want to thank you for your service and 
your commitment to the agency and to the markets in the 
country. You have done very, very important work, and so we are 
very grateful. We appreciate your willingness to stay with the 
CFTC a little while longer as the Senate works through the 
nomination process, and again, we thank you for your service.
    In the same vein, I would like to thank Commissioner Jill 
Sommers for coming today. She is also doing very important work 
at the Commission, helping us to be able to get the rules 
right. In particular, I would like to highlight her strong work 
on international issues, which certainly has come up in our 
oversight hearings and is certainly a priority for me. So we 
want to thank you for all of your work.
    I know that Senator Reid will be joining us shortly, and 
when he does, I will yield to him, but let me proceed at this 
point to indicate that Mr. Wetjen's nomination comes at a 
crucial moment for our economy and our financial markets as the 
CFTC continues to both implement important regulatory reforms 
and monitor our commodity markets for manipulation, fraud, and 
abuse.
    The public's awareness of the CFTC has only grown in the 
past year, with both the passage of the Dodd-Frank Act and the 
increased volatility in our commodity markets. People have 
realized just how much we need someone watching over these 
markets and the CFTC is there to protect both market 
participants and the integrity of the markets, making certain 
that they are competitive, open, and financially sound.
    I see that our Senate leader has joined us. Welcome, 
Senator Reid. I am going to stop at this moment and turn it 
over to you to introduce Mr. Wetjen. We appreciate always your 
leadership and hard work and your willingness to join us today. 
Senator Reid.

 INTRODUCTION OF MARK P. WETJEN, OF NEVADA, NOMINATED TO BE A 
 COMMISSIONER OF THE COMMODITY FUTURES TRADING COMMISSION, BY 
     HON. HARRY REID, U.S. SENATOR FROM THE STATE OF NEVADA

    Senator Reid. Chairwoman, on the way over here, my staff 
said, here is something, that the speech has been prepared for 
you. I said, if I need a speech to introduce Mark Wetjen, I am 
in bad shape.
    I want to be able to convey to you how fortunate we are 
that people like Mark Wetjen decide they want to do public 
service. Mark Wetjen was an attorney in the largest law firm in 
Nevada. I received a call from one of my sons who said he knows 
a man by the name of Mark Wetjen who wants to come to 
Washington and work in the Federal Government. I said, well, 
what does he do with the law firm? I thought maybe he was a--I 
did not know what he was, but he was a lawyer doing extremely 
well, very productive, making good money. But Mark Wetjen has 
always wanted to be in some form of public service. He came 
back and has worked for me for five or six years. How long has 
it been, Mark?
    Mr. Wetjen. Almost seven.
    Senator Reid. Almost seven. The reason his name was sent 
forward is not because I went out and hustled a job for Mark 
Wetjen. It came about as a result of everyone, Democrats and 
Republicans who work on Capitol Hill, realizing how good he is. 
He is an expert on housing and all kinds of financing. He is 
just a fine young man who will render as good of service to our 
country in his new capacity as he has working in the Senate. I 
think it is fair to say that he is one of the most popular 
staff members on Capitol Hill. He is always available, to 
Democrats and Republicans. And I am very, very fortunate that 
he has worked for me for these years.
    I care a great deal about Mark. He is one of those people 
that you deal with that you really feel like he is one of your 
sons.
    Chairwoman Stabenow. Thank you very much.
    Senator Reid. I hope none of you are going to ask me any 
hard questions.
    [Laughter.]
    Chairwoman Stabenow. We have some questions about credit 
default swaps we would like to ask you.
    Senator Reid. Could I be excused?
    [Laughter.]
    Chairwoman Stabenow. Thank you very much, Leader Reid. We 
very much appreciate--we know you have much to do, but this is 
important for you to be here, so thank you very, very much.
    Let me just remind us that in 1974, Congress created the 
CFTC as an independent agency to regulate commodity futures and 
options, but over the years, that role has expanded to complex 
financial products, and most recently to swaps, overseeing most 
of a $300 trillion notional domestic market. While the CFTC is 
an agency that few Americans really think about, it is an 
agency that is so important to the daily lives of Americans. 
Whether it is paying for gas at the pump or paying for food to 
feed our families, when these markets do not work, consumers 
feel the pain. The CFTC's role in overseeing our financial 
markets has significant implications for businesses around the 
world, as well, and the ability for companies to grow and 
create jobs.
    Commissioners play an important role in protecting these 
markets, writing regulations, investigating market abuses. 
Stepping into the agency in the middle of a complicated 
rulemaking is a heavy responsibility. As I told the White 
House, I expect a smart, thoughtful, independent voice at the 
Commission in this position, and I believe Mr. Wetjen will be 
such a voice.
    I would like to submit letters of recommendation for Mr. 
Wetjen from the U.S. Chamber of Commerce, and Senator Mary 
Landrieu has sent one, as well. If there are no objections, 
these letters will be inserted into the record.
    [The following information can be found on pages 30 and 31 
in the appendix.]
    Chairwoman Stabenow. Seeing none, I now turn this over to 
my good friend, Senator Roberts, for his opening remarks.

 STATEMENT OF HON. PAT ROBERTS, U.S. SENATOR FROM THE STATE OF 
                             KANSAS

    Senator Roberts. Thank you, Madam Chairwoman, and I 
appreciate your calling this hearing today as we review the 
nomination of Mr. Mark Wetjen, and I welcomed the appearance of 
the Majority Leader to the sometimes powerful Senate 
Agriculture Committee. I had hoped he would stay around so we 
could talk to him about our budget responsibilities and 
specific numbers, but perhaps we can do that at a later time.
    Commissioner Dunn, let me associate myself with the remarks 
of the Chairwoman in regards to your service on the Commission. 
You, sir, have been an independent voice and I appreciate that 
very much. And to Commissioner Sommers, the same in regards to 
what the Chairwoman has indicated. In my view, you have been a 
voice of reason and I am looking forward to your continued 
service.
    I met with Mr. Wetjen. He obviously is a very bright and 
capable young man. I had sort of hoped that--Cullen started to 
try and testify. It was obviously--I do not know if it was by 
the committee's recommendation or whether it was his parents, 
but I could hear him in the background indicating his support 
for your nomination and offering several recommendations.
    At any rate, being very bright and capable, however, Mr. 
Wetjen, when confirmed, will have a very difficult job ahead of 
him. One year ago today, the President signed the Dodd-Frank 
Act into law. Mr. Wetjen was intricately involved in that in 
terms of the process, and it involves a labyrinth of new 
requirements impacting not just Wall Street and Main Street, 
but every rural route throughout the countryside.
    This committee has held two hearings on the general 
implementation of this new law. I hope we will have more. We 
have heard from folks up and down the industry chain, from end 
users to dealers to clearinghouses to self- regulating 
entities, all with varying degrees of concern about how the 
CFTC plans to regulate futures and swaps.
    I and many of my colleagues have expressed some concern 
over the CFTC's proposals and I point out that that effort has 
been bipartisan. For instance, I understand in May, members of 
the New York delegation, of which this committee is very 
fortunate to have Senator Gillibrand as a member, sent a letter 
to the CFTC, FDIC, the Fed, and the Office of Comptroller of 
the Currency on the issue of CFTC's attempt to regulate trades 
occurring overseas between non-U.S. participants. Now, I share 
their concern, but tell Mr. Wetjen that if you want an Honorary 
Marshal of Dodge City to sign a similar letter next time, just 
let me know.
    I did not vote for Dodd-Frank for several reasons, but one 
central concern was that the rules outlined in the legislation 
would have the effect of driving business overseas. I am very 
worried about that, moving liquidity from the United States to 
our competitors. The New Yorkers' letter expressed this 
concern, but we have also heard from our competitors 
themselves. I included a letter from Japan into the record at 
our last hearing. Following up on that theme, recently, a 
Deutsche Bank executive was quoted as describing CFTC's 
proposals as a terrific opportunity for European countries at 
the expense of the United States. Let me repeat that, a 
terrific opportunity for European countries at the expense of 
our country.
    I mention this today to highlight the importance for the 
job for which Mr. Wetjen is nominated. I sincerely hope it was 
not the intent of Dodd-Frank and those who wrote the law to 
create a mass exodus of capital from the United States. I know 
that was not the intent when they wrote it. But the law of 
unintended effects seems to carry the day around here when we 
pass such far-reaching legislation. That is why we need 
Commissioners who will adhere to the law, act in accordance 
with Congressional intent, and be an independent voice.
    Thorough cost-benefit analysis must be completed on these 
proposals so the Commissioners, Congress, and the public have a 
full understanding of their consequences. By the time Mr. 
Wetjen may arrive at the CFTC, there will probably be more than 
40--40--final rules to consider, many of them the most complex 
and controversial. The Chairman, Chairman Gensler, has 
indicated that he plans to hold meetings to finalize these 
rules every few weeks for the remainder of the year. That is a 
tough schedule.
    Now, this is not intended as a criticism of you, Mr. 
Wetjen, by any means, but I wonder, and we talked about it when 
you took the courtesy to come by and visit with me, how can 
anyone be expected to absorb the huge amount--thousands and 
thousands of pages of information--that has been collected on 
each one of these rules without having the benefit of meeting 
with affected parties and being involved in the entire process? 
So I am going to be interested in hearing how the nominee plans 
to climb this mountain of information before he is asked to 
vote on a rule. I am sure he can respond very well.
    Again, thank you, Madam Chairwoman, for calling this 
hearing, and thank you to Majority Leader Reid for joining us 
today. And again, I thank Mr. Wetjen and his very lovely family 
for being in attendance.
    Chairwoman Stabenow. Thank you very much.
    And now I have two things that I need to do, Mr. Wetjen. 
First is to administer an oath that we have for all nominees. I 
would ask you to stand and raise your right hand.
    Do you swear or affirm that the testimony you are about to 
present is the truth, the whole truth, and nothing but the 
truth, so help you God?
    Mr. Wetjen. I do.
    Chairwoman Stabenow. Thank you very much.
    And secondly, Mr. Wetjen, do you agree that, if confirmed, 
you will appear before any duly constituted committee of 
Congress if asked to appear?
    Mr. Wetjen. I will.
    Chairwoman Stabenow. Great. Thank you very much.
    At this point, I would like you to proceed with your 
testimony, and welcome again.

   TESTIMONY OF MARK P. WETJEN, OF NEVADA, NOMINATED TO BE A 
    COMMISSIONER OF THE COMMODITY FUTURES TRADING COMMISSION

    Mr. Wetjen. Thank you, Chairwoman. Chairwoman Stabenow, 
Ranking Member Roberts, and members of the committee, thank you 
for the opportunity to be here today. I am honored to be 
President Obama's nominee to be a Commissioner on the Commodity 
Futures Trading Commission.
    I want to thank Senator Reid for his support for my 
nomination. I also want to thank him for the opportunity to 
work for him and serve our country here in the Senate. I will 
always admire his decency, his honor, and his devotion to 
public service.
    I want to thank my family, especially my wife, Nicole. I am 
grateful to her for supporting my pursuit of public
    service in Washington, DC, and agreeing to move our family 
here almost seven years ago.
    I want to recognize our little boy, Cullen Michael, as well 
as my mother, Sheila, and brother, Sean, who are here with us 
today. My mother was able to travel here from my home town of 
Dubuque, Iowa.
    I would also like to thank Commissioner Mike Dunn, who 
shares Iowa roots and whom I would replace, if confirmed. And I 
also want to thank Commissioner Sommers for being here today. I 
commend Commissioner Dunn for his many years of service to our 
country.
    Growing up, I gained an early appreciation for agriculture 
while spending countless days and weekends on the Wetjen family 
farm near Williamsburg, Iowa. Much of the time was spent 
helping my grandfather as he did daily chores, and it was there 
in my grandmother's kitchen where we listened to the morning 
market report on WMT Radio, hearing the latest prices for the 
corn, soybeans, and hogs my family produced. I also learned 
from my family there the values of hard work, listening to and 
respecting different points of view, and serving others, which 
I tried to bring to all of my pursuits, including my position 
with Senator Reid.
    During my tenure working for the Senate, our nation and the 
Congress have encountered multiple challenges that at times 
demanded policy responses. Many of these related specifically 
to financial markets, an area where I have advised Senator Reid 
for nearly seven years. From the housing crisis to the 
financial crisis, the problems and the policy responses were 
equally complex.
    By helping Senator Reid and the Congress work through a 
range of these challenges, I was asked to perform multiple 
tasks, but not the least of which was to work toward consensus, 
either within the Democratic Caucus, with the Republican 
Conference, or in many cases both. Indeed, this goal of 
achieving consensus has always been central to my 
responsibilities as a Senate staffer.
    I believe the experience of having worked for the Congress 
these last few years while we faced a sequence of extraordinary 
economic challenges and my role of helping craft solutions 
through consensus should prove useful if I am given the 
privilege to serve as a Commissioner at the CFTC. The 
Commission is now at an important period of history as it 
implements reforms to the swaps and futures markets, which for 
decades have served as useful tools for managing risk. The 
Commission is also in a key moment in the Dodd-Frank rulemaking 
process, having just begun finalizing some of its rules.
    With respect to swaps, the goals of Dodd-Frank are to 
mitigate systemic risk in the financial system, increase 
transparency in the derivatives markets, and combat fraud and 
manipulation in the derivatives markets. I believe these goals 
are nearly universally shared by market participants and policy 
makers alike and that building the new framework for regulating 
derivatives should be both nonpartisan and consensus-driven.
    Crafting rules that properly achieve these goals is, 
indeed, more challenging. The final rules will have an impact 
not only on ag producers in the heartland, but all market 
participants and the economy as a whole. Consequently, it is 
critical that the Commission continues its work in a careful, 
measured, and thoughtful way, and that the CFTC works to get 
these rules right.
    Likewise, it is critical that the Commission hews closely 
to the intent of Congress when finalizing its rules. That 
means, for instance, that the final rule should avoid imposing 
unnecessary cost burdens on commercial firms that use swaps. It 
also means that the final rule should seek to minimize 
unintended consequences that could impair U.S. competitiveness 
or the liquidity of our markets.
    If, with your support and the support of your Senate 
colleagues, I am given the opportunity to serve on the 
Commission, I pledge to bring to the job an independent and 
open mind and a balanced approach to the rulemaking process and 
to the work of the Commission.
    In closing, I would like to thank the committee for holding 
this hearing. I am happy to answer questions.
    [The prepared statement of Mr. Wetjen can be found on page 
24 in the appendix.]
    Chairwoman Stabenow. Thank you very much.
    Mr. Wetjen, as you discussed in your testimony, when 
Congress passed the Dodd-Frank Act, we gave the regulators a 
lot of new, powerful authority, but we also put in place 
guidance in the statute, restrictions around those authorities, 
as well, to try to create a balance. We directed regulators to 
target system risk, as you talked about, and not inadvertently 
pull in commercial end users who are using derivatives to 
legitimately hedge and manage their risk, and we did that, in 
part, through a commercial end user clearing exemption and 
protections for captive financing affiliates as well as 
protections for smaller institutions as well as--such as 
community banks, Farm Credit, and Farmer and Rural Electric Co-
Ops.
    So as a Commissioner, how would you respond to 
Congressional concerns and inquiries and how do you interpret 
Congressional intent when it comes to the application of margin 
on end user transactions or capital finance affiliates when it 
comes to the definition of a swap dealer?
    Mr. Wetjen. Thank you, Madam Chairwoman, for that question. 
This issue is one where I think it is quite clear in the 
statute, Congress did not intend to include captive finance 
companies or commercial firms in the vast majority of the 
regulatory regime authorized under Title VII. The goal has to 
be kept in mind, that the purpose of Dodd-Frank is to mitigate 
systemic risk, as you said, but that can be done in a way 
without placing unnecessary burdens on end users, commercial 
end users and captive finance companies.
    And so I think the statute is quite clear in that, and that 
includes with respect to when the--well, when the Commission is 
developing its rule on margin, it needs to acknowledge that 
intent and I have every intention of, if given the honor to 
serve, of working with the Commission, listening to all market 
participants in approaching this problem, but staying as true 
to Congressional intent as I can.
    Chairwoman Stabenow. Thank you. That is something that I 
know you are aware is of interest and concern on a bipartisan 
basis, both in the House and the Senate, addressing what we 
need to do in terms of systemic risk and following through on 
Dodd-Frank, but also balancing what are legitimate uses of the 
markets in terms of hedging risk, managing risk, and the 
importance of that to those who use the markets for its 
intended purposes. So that is something that we will continue 
to be in dialogue with the CFTC about.
    I wonder if you might talk a little bit more from the 
perspective of being an independent voice. That is something 
that you and I talked about when we met. As a new Commissioner 
coming in in the middle, really, of intense rulemaking debates 
and rulemaking period, how would you balance your duties to 
both review and consider and in some cases even ask for changes 
to new rules before they become final without unnecessarily 
slowing down the process, because you are coming in at really a 
unique time.
    Mr. Wetjen. Thank you, Madam Chairwoman, for that question. 
I have given this question a lot of thought, and the best 
approach to maintain independence is, I believe, the approach I 
have tried to take working here in the Senate, and that is 
listen to all viewpoints. Do not come at a problem with a 
predetermined decision or outcome. Learn first. Listen to all 
viewpoints. Gather the information. That includes engaging with 
fellow Commissioners. That includes engaging with, as I said, 
market participants who are going to be impacted by these 
rules. That means continuing a dialogue with Congress. And I 
think by following that process and coming to a good, well-
informed, reasoned decision, I am going to be able to maintain 
the independence that I think this committee expects.
    Chairwoman Stabenow. Thank you.
    I will turn now to Senator Roberts.
    Senator Roberts. Mark, some of my questions are going to be 
duplicative, but I think they are important because I think it 
underscores what a lot of people are concerned about, not about 
you particularly, but about the job. I appreciate your just 
emphasizing learning first, listening to stakeholders, 
listening to the Commissioners, doing the best job you can to 
become independent, but you are going to be voting on final 
rules, about 40 of them. The Chairman has a fast-track 
schedule. And the other Commissioners have had months to listen 
to stakeholders. You have heard me talk about this before, in 
my earlier comments. So you have been parachuted in. I 
recognize that you are young, bright, and very capable, but 
right in the middle of voting without having the opportunity to 
collect this information before you, unless you have been 
spending the wee hours of the night not with Cullen, but with 
studying all this information.
    How are you going to make an informed decision, and is it 
appropriate--and I am not asking you to do so, but would it be 
appropriate for you to recuse yourself for a brief period of 
time to get up to speed? Is that necessary, or do you feel like 
you can hit the ground running with all of these attributes 
that you have mentioned?
    Mr. Wetjen. Thank you, Senator Roberts. I have been 
monitoring the work of the Commission for quite some time now, 
but I think the more important point I would like to make, 
Senator, is that the process I laid out in response to 
Chairwoman Stabenow's question is the process that I am always 
going to stick to, so that is making sure I have the requisite 
information to come to a well-reasoned decision. I am going to 
insist on taking whatever time I need in order to do that. So I 
am going to want to listen to all viewpoints. I am going to 
want to listen to each person who wants to bring information to 
me who might be impacted by any given rule. And I am going to 
follow that process.
    My focus will be on getting the rule right. I think the 
more quickly the Commission can act, the better, because it is 
going to provide some certainty to market participants and I 
know the market prefers that or would like that. But I think 
more important to them is making sure the rules are right. And 
so that would be my primary goal.
    Senator Roberts. I appreciate that. The Chairman seems to 
think the United States should set its regulatory policy as 
tight as possible and our foreign counterparts will simply 
follow our lead. But as I have indicated in conversation with 
you before, Japan and the EU have delivered a very different 
message. The chief Japanese financial regulator has said that 
because of the extraterritorial reach of proposed U.S. 
regulations, Japanese institutions might have to avoid trading 
with U.S. institutions. That is a pretty strong statement, to 
say the least.
    Are you concerned that what I would describe as regulatory 
arbitrage could develop and participants may take their 
business overseas if our rules are too prescriptive?
    Mr. Wetjen. Senator Roberts, I think this is a very 
legitimate concern, and I know it is one shared by a number of 
folks here in Congress. The goal of Dodd-Frank is to protect 
the U.S. financial system. It is not to disadvantage U.S. firms 
that are operating overseas. The Commission needs to recognize, 
as the Congress did, that there is quite a bit of 
interconnectivity among global markets, and we saw that 
firsthand from the crisis of 2008. But notwithstanding that, I 
think this rule on margin will come out in the right place if 
the Commission remains mindful that, again, the goal is to 
protect the U.S. financial system and not disadvantage U.S. 
firms, and I think both of those objectives can be met.
    Senator Roberts. You are replacing Commissioner Dunn. I 
would not say replacing is the right word. He is obviously 
irreplaceable. But when the position limits rule was proposed, 
the Commissioner, in his usual independent voice, expressed his 
concern, quote, ``at best, position limits are a cure for a 
disease that does not exist, or at worst, a placebo for one 
that does.'' I am also concerned that there is no reliable 
analysis proving that position limits to curb excessive 
speculation in the swaps market would have any favorable impact 
on commodity prices.
    So do you believe it is important to have sufficient data 
about the swaps market and reliable economic analysis before 
adopting any position limits proposal? Obviously, the answer is 
yes, but go ahead.
    [Laughter.]
    Mr. Wetjen. Thank you, Senator Roberts. Congress through 
Dodd-Frank did give this tool to the agency to try and combat 
manipulation, and that is the tool of being able to impose 
position limits, as appropriate. In doing that, or in the 
agency's effort to craft this rule, it needs to be very, very 
mindful of the impact on liquidity in these derivatives 
markets. These markets will not function well as a tool for 
commercial firms if liquidity dries up. So if I were given the 
honor to serve, I would want to consider market data. Again, I 
go back to some of my earlier responses. I want to make sure 
that every decision I make is as well informed a decision that 
I can make, and that includes considering all the requisite 
data.
    Senator Roberts. Madam Chairwoman, my time has expired. I 
do have about four or five more questions for the witnesses, 
but I yield at this time.
    Chairwoman Stabenow. Thank you very much.
    Senator Nelson.
    Senator Nelson. Thank you, Chairman Stabenow, and thank 
you, Mr. Wetjen, for serving, and thank you to your family for 
supporting you in this service. As Creighton alums, I know you 
will bring a great deal of wonderful education to this 
position.
    Given your background, having grown up around agriculture, 
I know you can appreciate the impact that volatility of the 
market has on farmers. Their reliance on inputs such as fuel, 
fertilizer, and the income their earn off the grains are really 
contingent on the price of the market. This spring reminded us 
of the volatility in the marketplace, and I think we all agree 
on the necessity of implementing Dodd-Frank, and as you have 
said, in a sound and reasonable time frame and in a sound and 
reasonable way to deal with reckless speculation.
    But many of my State's producers who are not really 
financial end users are concerned that, somehow, a one-size- 
fits-all approach will be put in place and will put regulations 
on market participants hedging for legitimate purposes, tying 
up capital from productive uses that would otherwise be 
available. Now, Dodd-Frank contained critical protections to 
ensure that non-financial end users who use futures contracts 
in a legitimate manner to hedge against higher prices would not 
be hampered by unnecessary regulations.
    So specifically when it comes to CFTC's implementation of 
rules relating to the definition of a swap dealer, the end 
user, and exception limits, what are your thoughts when it 
comes to CFTC following Congressional intent when it comes to 
protecting commercial end users so they are not adversely 
impacted by Dodd-Frank's regulatory framework? How are you 
going to protect against what I call the regulatory structure 
that seems to be, ``and while we are at it, let us do this, 
too,'' exceeding the direction of Congress by legislation but a 
well intentioned effort to, let us get that taken care of, as 
well, rather than just focusing strictly on what Congress has 
directed? What are your thoughts about that?
    Mr. Wetjen. Thank you, Senator Nelson. I think you raise a 
very important point, and as I said earlier in my statement, I 
think there are few things more important to a Commissioner 
than to follow closely, as closely as possible, Congressional 
intent. I think if I were given the privilege to serve, one 
area that I might like to look at would be to see, or to make 
sure any proposal or proposed final rule is very closely linked 
to specific authority in the statute.
    There might be times when you might not find the 
specificity that you need in order to solve a particular 
problem, but I think, generally speaking, you want to make sure 
that the authority is express, and so that is the approach I 
would intend to take.
    Senator Nelson. Well, I have always looked at a developing 
bureaucracy from the standpoint of having been a Governor 
dealing with bureaucracy and dealing with bureaucracy back 
here, describing bureaucracy as ``we-be''s. We be here when you 
come. We be here when you go. And I hope that you will be able 
to corral that particular approach in your position, if 
confirmed, and I believe you will be.
    I guess I am speaking to the other Commissioners here in 
the room, as well, and those who are not in the room, to 
understand that Congressional intent, in my mind, is something 
short of sacred, but it is extremely important and I hope that 
that can be remembered, because while there has been a 
significant delegation of responsibility to alphabet agencies 
within this community, what flows from that delegation has to 
be totally consistent with what was intended by Congress in 
passing the legislation. It was not the beginning, and now it 
is up to the alphabet agencies to take it and run with it. It 
is to implement it consistent, and I appreciate your answer and 
I hope that you can hold firm to that with a lot of pressures 
to be, perhaps, extra- territorial in the approach, because we 
have seen an awful lot of that in Washington, and I hope you 
can hold back that process and participate in that manner.
    Thank you, Madam Chair.
    Chairwoman Stabenow. Thank you very much.
    Senator Lugar.
    Senator Lugar. Thank you, Madam Chairman.
    Mr. Wetjen, although the Commission was founded in 1974, 
not much had happened by the time I got into the Senate in the 
1976 election. Herman Talmadge, who was then the Chairman of 
the committee, was not deeply interested in CFTC. Senator Leahy 
and I were sitting at the end of a long table in the Ag room 
about 300 yards from the Chairman, and as a result, were 
assigned oversight, and no one else really paid any attention. 
So we have sort of grown with the process over the years. Most 
recently, Walt Lukken, who was one of my valued staff members, 
headed the Commission, and I appreciated from his standpoint 
the difficulties that were faced.
    So a part of my questioning today really comes with regard 
to the success of the Commission. The debates in the press as 
well as with Gary Gensler and others have been over the fact 
that inadequate staff has been available for some time, just 
simply to go through the enforcement of what was on the books, 
quite apart from the interpretation of Dodd-Frank and recently, 
in the Wall Street Journal-- yesterday, for example--the 
dispute over a 15 percent cut in the budget on top of that. 
While in our hearings on this, we are hearing about the 
prodigious effort to understand the rules, to get the rules 
going, and this does not offer a great deal of confidence to 
the American people who are outside of this, either as 
commercial users or as other persons, for fear that something 
may be occurring even while we are still writing the rules and 
with inadequate staff even looking at what we have.
    Do you have any observations of this, as you have looked at 
it from your current position as a valued staff member of 
Leader Reid, likewise, as you have studied this? What is going 
to be required in terms of the staffing of CFTC to get the job 
done, first of all, and getting rules out, which we understand, 
dealing with the international implications, the commercial 
users versus others, and finally, at least, bringing some 
confidence to the public?
    Mr. Wetjen. Thank you, Senator Lugar. As you point out in 
your question, while the Commission currently has 
responsibilities to implement Title VII, it has other missions, 
too, and one of those is through its Division of Enforcement. 
And so that includes monitoring these markets and making sure 
that there is not manipulation and fraud. So that is a very 
important mission, obviously.
    I think, given the size of the mission that is now the 
overall mission that now stands before the Commission that 
comes from Title VII, I think it would be hard to dispute that 
the agency needs resources. It probably needs more resources. 
If you just look at the size of the swaps markets, which are 
exponentially larger than the futures markets that the agency 
has been overseeing up until now, I think you would reasonably 
come to that conclusion.
    I recognize we are in difficult times here and so I think 
the use of resources by the agency needs to be carefully 
considered and needs to be carefully allocated, and so, 
Senator, what I would want to do if given the honor to serve is 
speak with my fellow Commissioners, talk to the Chairman, get a 
handle on where these resources need to be allocated first, and 
help try and get those resources to the extent I can 
contribute.
    One other thing I might add is that I know Commissioner 
O'Malia has been a leader on this. Again, given the nature of 
how these markets have evolved, it is also important to ramp up 
the technology, the use of technology at the agency. So I think 
that is another area where I would be interested in trying to 
contribute.
    Senator Lugar. Well, I hope as a Commissioner that you will 
help to inform us of what is going on so that we can best 
interpret and bring a sense of confidence to all this.
    I just have, and this may be a gross oversimplification, 
but there are brilliant people in America thinking about how to 
game the system. I am not one ever to diminish free private 
enterprise and the desire to make money on behalf of financial 
institutions or anybody else. I just want to make certain that 
it is a reasonably even competition among those who count upon 
you and count upon us for a system that brings confidence, 
transparency, the lack of systemic risk, all of the above, 
because at least the testimony we heard three years ago before 
this committee, as things were unfolding at that point, it 
appeared that we had been outgamed. We had lost the contest 
intellectually.
    And so I appreciate your mention of the technology that may 
be involved, but likewise, the ability to have the staff to at 
least keep track of all the elements that are involved in this, 
and I thank you very much for your testimony.
    Mr. Wetjen. Thank you, Senator.
    Chairwoman Stabenow. Thank you very much.
    I am going to turn to Senator Klobuchar, and I also am 
going to, at this point, Mr. Wetjen, excuse myself for an 
Energy markup where they are telling me I need to be casting 
votes in another part of the building. And so I am going to at 
this point turn things over to the capable hands of Senator 
Klobuchar as well as Senator Roberts to continue the hearing.
    Let me just also indicate to my colleagues that while we 
will not be voting today on the nomination, we will be polling 
the members of the committee and looking for a time to hold the 
vote in the near future.
    So, again, welcome and congratulations. I look forward to 
moving forward and working with you, and at this point, I am 
going to turn it over to Senator Klobuchar.
    Mr. Wetjen. Thank you, Chairwoman.
    Senator Klobuchar. [Presiding.] Thank you very much. Hello, 
Mr. Wetjen.
    Mr. Wetjen. Hello, Senator.
    Senator Klobuchar. I have to tell you, I was out and coming 
back in from another hearing and saw your son out there. How 
old is he?
    Mr. Wetjen. Sixteen months.
    Senator Klobuchar. He was reading Congressional Quarterly.
    [Laughter.]
    Senator Klobuchar. Senator Thune saw it, as well. He can be 
my witness. He literally had it in front of him. Anyway, I was 
quite impressed, so I do not even know if I need to ask you any 
questions, but----
    [Laughter.]
    Senator Klobuchar. I think you know that your nominations 
comes during a critical period in the history of the Commodity 
Futures Trading Commission--all the new responsibilities under 
Dodd-Frank, the risk taking that led up to the financial 
crisis, the realization that we have to do things differently 
so that it does not happen again.
    So my questions are, first of all, pertaining to my State. 
Our State boasts the largest number of agricultural co-ops in 
the country and there has been a concern that they would be 
classified as a swap dealer under the new rules. Senator Thune 
and I Co-Chair the Congressional Farmer Co-Op Caucus and I 
believe that we must maintain the ability of farmers to band 
together to market their products and manage their risk in some 
very difficult market times.
    So, Mr. Wetjen, do you believe that this legislation should 
be implemented in such a manner to protect these types of risk 
management tools utilized in rural America? I am talking here 
about the Dodd-Frank law.
    Mr. Wetjen. Yes, Senator, I do.
    Senator Klobuchar. That is good. That would be all right, 
do you think, Senator Thune?
    Senator Thune. Let us go home.
    [Laughter.]
    Senator Klobuchar. Okay.
    Mr. Wetjen. No, if I can add to that, Senator, I mentioned 
in the opening statement that one of the goals, as you know, of 
Dodd-Frank is to try and mitigate systemic risk. I think it is 
fair to say that cooperatives do not strike most people as the 
sorts of entities that are going to pose that type of risk on 
the financial system. So again, I think if the Commission hews 
closely to Congressional intent and does so when trying to 
define some of these entities, including swap dealers, I think 
it is going to come out with the right result.
    Senator Klobuchar. Very good. I was also pleased to see 
that the Chamber of Commerce praised your work with the 
business community over the last seven years while you served 
as an aide to Senator Reid. In their comments, they also 
pointed to the years of practical legal experience you gained 
in the financial services sector prior to coming to work in the 
Senate. Could you talk about this experience and how you think 
it will help you at the CFTC.
    Mr. Wetjen. Yes, Senator. When I was an attorney, I 
practiced in a number of different areas, including financial 
services, as you said, and I think probably the main benefit 
that experience has for me is I understand how legislation, and 
I think I understand or would be quickly able to understand at 
the agency, if I am able to serve there, how the rules impact 
the private sector and impact business.
    And so as an attorney representing companies who are 
grappling with compliance, you could see the challenges that 
came with that. And so I think it gives me a practical 
background that I think could serve me well if I were to serve 
on the CFTC, because I have an understanding of what these 
rules mean and, in fact, how they can change how businesses 
operate. And so I would be sensitive to that.
    Senator Klobuchar. Thank you. Obviously, I care a lot about 
that. We have a lot of end users that fall under exceptions to 
the rule that operate in our State. We have worked very hard to 
make sure that we differentiate some of the speculation issues 
from legitimate end users and those that may be playing more of 
a speculative role. I want to make clear, while I care about 
the exception, I also care a lot about the excessive 
speculation in the energy market. I am sure you are aware that 
the CFTC was required by law to implement position limits back 
in January. It has not happened yet. The recent run-up in gas 
prices, while they may have fallen off somewhat, have had a 
significant impact on our economic recovery. I know that in my 
State right now, we are struggling. Five mid-size cities are 
having their airline service reduced or eliminated by Delta and 
the reason given was the oil prices.
    So I think the evidence is pretty clear that excessive 
speculation can contribute to volatility in the market. I will 
not ask you to comment on the ongoing work the CFTC is doing to 
implement Dodd-Frank in this area, but I am hoping you would 
share your views on this part of the legislation and position 
limits.
    Mr. Wetjen. Thank you, Senator. In Dodd-Frank, the 
legislation provided the CFTC with an additional tool to try 
and combat manipulation. Position limits have been in place, as 
you know, in the futures space, but they had not been in place 
for the swaps markets. So that is the goal behind the position 
limits rule generally, is to give the agency an additional 
tool.
    As I said earlier, I think it is very important, however, 
that in crafting this rule that the Commission remains mindful 
of the impact the rule could have on liquidity in the swaps 
markets. If liquidity dries up, there are no swaps markets, and 
so these very markets that some of the co-ops and other end 
users in your State rely on for risk management would be 
diminished and that is not a desirable outcome, either. So some 
way, the Commission needs to balance these two interests, and 
that is what I would try to do if I were given the honor to 
serve.
    Senator Klobuchar. Thank you very much.
    With that, Senator Thune, the Co-Chair of the Congressional 
Farmer Co-Op Caucus. Senator Thune.
    Senator Thune. Thank you, Madam Chairwoman, and I would 
echo the issues and concerns that you have raised about 
cooperatives and how they might be impacted by this, and Mr. 
Wetjen, thank you for appearing here today and responding to 
some of those concerns.
    I am, in particular, concerned about the limited definition 
the CFTC is looking to instate for the de minimis exception 
when defining swap dealers. Elevators and local co-ops provide 
important risk management opportunities for producers and they 
are hardly the large systemically important entities that 
Congress intended to be regulated by this law. And so including 
them in the definition of swap dealers will only raise prices 
for producers and limit their chances to engage in bona fide 
hedging.
    So I appreciate the remarks that you have already made with 
regard to that issue, but I would simply say that the reason 
some of this stuff is so important, if you look at the de 
minimis exception in the proposed rule, if you limit the number 
of swaps and options, which under options is 20 and 
counterparties 15, only those that are registered and regulated 
as swap dealers would be in a position to offer hedging 
projects to the ag sector. And in addition to the $100 
threshold--in addition, that $100 million threshold would 
significantly limit the volume of hedges that could be offered 
by any entity besides registered swap dealers.
    Now, just to put that into context, for example, in today's 
environment, it will only take about eight million bushels of 
soybeans and around 15 million bushels of corn to exceed that 
threshold. And just by way of comparison, the U.S. produced 
last year 12.4 billion bushels of corn and 3.3 billion bushels 
of soybeans.
    So that is why getting this right is really important, and 
the only thing I would ask is that you, as you have already 
indicated, provide us an assurance that when you look at these 
things, and I know there is a large amount of information to 
absorb given the complexity of the rules and the broad impacts 
that they are going to have, but I hope that you will take time 
to understand these issues and the implications that they have 
for agriculture and the needs of these commercial end users.
    So I hope we can count on you to give great consideration 
to those impacts and making sure that agricultural producers 
have the tools that they need to manage risk in what is an 
increasingly sort of volatile commodity market, and I think it 
is going to be even more important that they have those tools 
available to them. If you could, I guess, reassure us that that 
is certainly something that you are going to give particular 
attention to, I know I would certainly appreciate it, as would 
some of my colleagues on the panel.
    Mr. Wetjen. Thank you, Senator Thune. Well, first of all, 
you have my pledge to take the time I need to make sure that I 
have the information I need to make a good decision, if I were 
given the honor to serve on the Commission.
    Again, the goal of Dodd-Frank is to--one of the goals is to 
mitigate systemic risk, and to the extent there are companies 
that do not contribute to systemic risk or do not cause it, 
they should not unnecessarily be wrapped up in the 
implementation of Title VII. So that is my belief and that is 
something that I would--that is a belief I would carry to the 
Commission.
    Senator Thune. Let me ask you just a couple of things about 
factors that you think the Commission ought to consider when 
making new capital and margin requirements. Obviously, it seems 
like you would concur that you ought to consider whether an 
institution is systemically important. Would you--I guess, 
would it be your view that users who are not systemically 
important be allowed to front less capital?
    Mr. Wetjen. I think that, with respect to both the margin 
and the capital rule, the approach of the agency so far has 
been to focus on the swap dealers and major swap participants 
and I think that is the right direction to go in this. I agree 
with you, Senator Thune, that we should not be unnecessarily 
adding to the cost burdens that end users have already. We need 
to make sure that these swap markets and derivatives markets 
continue to be made available and that is a function to some 
degree, at least, a function of how profitable and how well 
these end users are doing, which is a function of how much 
capital they need to put up for regulatory compliance. So that 
is an issue I would always take very seriously.
    Senator Thune. Should the Commission consider the economic 
cost of tying up capital in margin requirements, the economic 
costs?
    Mr. Wetjen. Well, I think the law requires the agency to 
carefully go through a cost-benefit analysis of every rule that 
it promulgates, and to the extent that that includes what you 
just mentioned, of course, I would be supportive of that.
    Senator Thune. Should end users who are hedging financial 
risk be given an exemption?
    Mr. Wetjen. I am sorry. Could you repeat that, Senator?
    Senator Thune. Should end users who are hedging financial 
risk be given an exemption? I guess what I am getting at is if 
the answer is no, will it not make it more expensive for these 
users to hedge their risk and, in turn, make the financial 
system more unstable?
    Mr. Wetjen. I agree, it could have that outcome. I think in 
determining these exemptions, again, I think if the agency 
stays closely to what the statute is trying to accomplish, 
which is mitigate systemic risk, I think this issue, like the 
rest, will be properly resolved by the Commission.
    Senator Thune. Okay. My time has expired, Madam Chair. 
Thank you.
    Senator Klobuchar. Thank you very much, Senator Thune.
    I know Senator Roberts has a few more questions.
    Senator Roberts. Thank you, Madam Chairwoman.
    The President issued an Executive Order January 18 in 
regards to a cost-benefit analysis that should be provided 
prior to any rulemaking or promulgating of rules. At first, the 
independent agencies thought they were exempt, but the 
President came back and said, no, you are under the scope. 
Commissioner Summers has been the champion of trying to take a 
look and make sure that the cost-benefit analysis is accurate 
and there is enough time to do it. I think that prior to the 
IG's intervention, that there was a concern that the cost-
benefit analysis on these rules--and there are so many of them, 
as I have indicated--40--was superficial and that we need 
enough time and that the recommendation was to bring an 
economist in, hopefully one with one arm so he could not say, 
``on the other hand--"
    [Laughter.]
    Senator Roberts. At any rate, an economist in along with 
the Office of General Counsel and it was not just a superficial 
look. So now you have got a team, and I know that you have 
indicated to me that you think that this is a requirement. 
After all, the President did indicate an Executive Order.
    So if you find out that the Commission's own analysis is 
flawed as determined by this cost-benefit analysis, what are 
you going to do to correct it? Are you going to join with 
Commissioner Summers and say, hey, this is not going to work 
out very well until we find out. Make sure that this analysis 
is a substantial one and is a correct one.
    Mr. Wetjen. Well, Senator Roberts, I do agree that the 
cost-benefit analysis has to comply with the requirements of 
statute, so it has to be sufficiently rigorous, and I would 
look forward to working with Commissioner Summers on this and 
every other issue before the Commission.
    Senator Roberts. I appreciate that. I posed to the Chairman 
during our last hearing a Kansas county elevator expects in the 
near future to enter into forward contracts with the area wheat 
farmers at a fixed price with delivery at a later date. So to 
hedge this risk, the elevator goes short on wheat futures, and 
I asked the Chairman, is that a bona fide hedge? The question 
has since been asked of the CFTC General Counsel and of career 
staff. We now have three different answers--three. Would you 
like to weigh in? What is your view? Is that a bona fide hedge?
    Mr. Wetjen. Senator, I would like to weigh in by saying 
that the grain elevator that you describe should be able to do 
that transaction and should be able to do it without 
unnecessary costs or regulatory burdens.
    Senator Roberts. Well, that is a very good short answer and 
I appreciate that.
    I do not know why we are into a ``he said, she said'' or 
whatever debate or back and forth with Europe, but I go back to 
the senior Deutsche Bank executive who recently said that 
Europe has a relative pragmatic approach to reforming 
derivatives and it offers a terrific opportunity at the expense 
of the United States, which risks scoring one of the biggest 
own goals in financial market history. That was in Reuters back 
in June.
    A senior British regulator recently said that to suggest 
that the U.S. sets a gold standard that other markets should 
follow is nonsense, as in the Financial Times, June 8.
    Now, we have those statements, and then you have the 
Japanese letter that was on your website, and we had to refer 
it to you to figure out, even though it was on your own 
website--not yours, but the CFTC's, where the Japanese said, 
whoa. Wait a minute. We might not even do trade with the United 
States.
    And then we have Secretary Geithner's statement of the same 
time that European regulations are tragic, and that the U.S. is 
going to bring the rest of the world with us.
    And I do not understand why we have to get into an 
international shouting match here. I do not get it, why we have 
to be saying things like that, stirring up dust over there and 
then they stir up dust over here. Lord knows, we have enough 
problem with trade than doing something like this. So I think 
the CFTC ought to stick to their business, and maybe--you never 
get hurt by what you do not say. Any comments?
    Mr. Wetjen. Well, I wish I could take your advice, but I 
will give you an answer, Senator Roberts. I think that, again, 
the goal of Dodd-Frank with respect to Title VII and the goal 
of the agency, the goal of the CFTC, is to protect the U.S. 
financial system, to try and mitigate systemic risk but to 
protect the U.S. financial system. It is not to try and make 
U.S. firms operating overseas less competitive.
    I do think there has to be some way to meet both of these 
objectives. I am confident there is a way to meet both 
objectives. I recognize, again, that there is interconnectivity 
between these derivatives markets globally, and so that has to 
be taken into account. We have seen some of the risks of 
contagion from one market to another, even here in the last 
number of months with respect to the European debt crisis. So 
that always has to be borne in mind. But, as I said, I think 
there is a way to do this, protect the U.S. financial system 
but not unnecessarily harm our U.S. firms that are operating 
overseas.
    Senator Roberts. Why do we not adopt a policy, instead of 
taking a Brillo pad to the issue verbally, and simply smother 
our friends with the milk of human kindness and reason and 
maybe we would not get into some of these issues that make the 
press and make our job a lot more difficult. With that, I am 
way over time, and I see the distinguished Chairwoman is coming 
back to make me behave.
    [Laughter.]
    Chairwoman Stabenow. [Presiding.] Well, I apologize for 
ping-ponging back and forth this morning, but I know you 
understand, Mr. Wetjen.
    Mr. Wetjen. I do.
    Chairwoman Stabenow. You have been here and certainly 
understand our efforts in the Senate of trying to be two places 
at once.
    I did want to ask a couple of other questions, though, and 
I apologize to my colleagues if, in fact, these have been 
asked, but I did want to just reinforce a couple things that we 
have been talking about.
    One is regarding position limits. When we talk about the 
excessive volatility in the commodity markets, especially when 
it comes to oil prices and grain trading, and certainly that is 
being debated in the Energy Committee, as well, there is an 
ongoing debate about what forces impact that volatility. I 
wonder if you might tell us what you think the role of 
speculation is in moving markets and are position limits an 
effective tool to curb volatility.
    Mr. Wetjen. Thank you, Madam Chairwoman. I would like to 
respond by making a couple of observations, if I may. The first 
is that there have been a number of reports here recently, both 
from the CFTC and from other financial institutions, that there 
does appear to be more speculative activity in some of these 
commodity markets. Meanwhile, in the last several years, I 
think it is fair to say we have seen a fair amount of 
volatility in the crude oil market and some others, as well. 
Congress has decided to give this new authority to the CFTC to 
apply position limits, if deemed appropriate, and I understand 
that the goal behind that was to add another weapon in the 
CFTC's arsenal to try and combat manipulation and unreasonable 
price fluctuations.
    So I think in deciding how to craft this tool and deciding 
how to use it, the Commission needs to be very careful and 
deliberative and they need to consider closely all market data 
that is available to it and ensure that any rule is not going 
to dry up liquidity in these markets, but I think that that 
objective, or those two objectives, can be met.
    Chairwoman Stabenow. Thank you. I know colleagues, as well, 
have talked about the international harmonization, and we have 
talked about that at other oversight hearings and a very 
important piece of going forward in a global economy. I wonder 
if you might just speak a little bit more about how far you 
believe the CFTC's jurisdiction reaches into other countries 
and territories. How do you see the relationship with the CFTC 
and international regulators working right now, and how would 
you work to strengthen the coordination between, and 
particularly when we see Europe certainly going at a solar 
pace, certainly a different timetable than we are and certainly 
in Asia a very different situation.
    Mr. Wetjen. Thank you, Madam Chairwoman. As Senator Roberts 
has pointed out a couple of pieces of correspondence from 
regulators overseas, and I think it might be fair to say that 
there could be better coordination between U.S. regulators and 
their counterparts abroad, and if given the privilege to serve, 
I would like to help the Commission on that score.
    Generally, I think the CFTC's mission is to protect the 
U.S. financial system first and foremost. There is, again, 
interconnection between our markets and markets abroad. But the 
way the statute was drafted is to basically make sure the focus 
of the agency's work is here in the United States, is focused 
on transactions that are here in the United States, and then 
just with few exceptions is it to drift off the shores. And I 
think it is only permitted--the agency would only be permitted 
to do that if absolutely necessary. But, again, I think there 
is a way to do that, meet that objective while at the same time 
ensuring that our U.S. firms operating overseas are not 
unnecessarily disadvantaged.
    Chairwoman Stabenow. Thank you. And then, finally, we are 
hearing a lot of discussion and a lot of important work about 
sequencing and phasing in the reforms, and I wonder how you 
might respond to the tension between those who say the CFTC is 
moving too slowly and those who would say the CFTC should delay 
implementation.
    Mr. Wetjen. Thank you, Madam Chairwoman. The market 
participants are in search of clarity and they are in search of 
certainty, and I think it is the agency's duty to provide both 
as quickly as possible.
    I think there are a number of different tools that the 
agency can use to provide that, and so I would be interested in 
working with the other Commissioners, working with the staff in 
trying to figure out the best way to provide that clarity, to 
provide that certainty, with respect to how these rules are 
phased in.
    And so at this moment, I do not have the best judgment 
about the way to go about doing that, but I think that always 
has to be the goal, and if that remains the goal, the agency 
will end up with a proposal that makes sense for the markets.
    Chairwoman Stabenow. Thank you.
    Senator Roberts, did you have any other questions?
    Senator Roberts. I am going to submit the questions for the 
record, but I have just one here. The Commission acted on July 
14 to issue an order to provide some relief from some of the 
requirements that proved rather nettlesome, and after urging by 
several members of this committee, I might add. Some observers 
believe that the relief was not as clear-cut as they had hoped, 
but did appreciate very much that the CFTC took action to 
provide legal certainty. We did not want a swap purgatory. Many 
of us are concerned, however, that this relief expires on 
December 31. It is hard to figure out what is appropriate in 
terms of the time frame here, but I would like to ask you to 
monitor this situation and work with the other Commissioners to 
ensure that meaningful relief that provides legal certainty 
would continue beyond December 31 if the regulations to 
implement Dodd-Frank are not complete.
    Mr. Wetjen. Senator, you have my pledge to do so.
    Senator Roberts. I appreciate all of your answers and wish 
you well.
    Mr. Wetjen. Thank you.
    Chairwoman Stabenow. Thank you very much.
    I want to thank everyone again today. Mr. Wetjen, thank 
you. I thank your family, the Commissioners that are with us, 
and particularly Commissioner Dunn, thank you for your service. 
We appreciate your candid responses, Mr. Wetjen. I believe you 
have proven to be a thoughtful and independent candidate. I 
think this position is extremely important. It really cannot be 
overstated. And the fact that CFTC Commissioners are currently 
voting on rules and regulations that will fundamentally change 
our financial markets and impact our economy for years to come 
certainly means that this is a very, very important time. So we 
wish you well. We look forward to working with you.
    As I indicated earlier, we will be looking for a time-- 
working with Senator Roberts, we will find the time to be able 
to have a vote in the committee in the near future. I 
congratulate you again on your nomination.
    A quick note to Senators that questions for the record are 
due to the Committee Clerk by 5:00 p.m. on Monday, July 25.
    The meeting is adjourned.
    [Whereupon, at 11:17 a.m., the committee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                             JUNE 21, 2011



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] 71633.001

[GRAPHIC] [TIFF OMITTED] 71633.002

[GRAPHIC] [TIFF OMITTED] 71633.003

[GRAPHIC] [TIFF OMITTED] 71633.004

[GRAPHIC] [TIFF OMITTED] 71633.005

[GRAPHIC] [TIFF OMITTED] 71633.006

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             JUNE 21, 2011



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] 71633.007

[GRAPHIC] [TIFF OMITTED] 71633.008

      
=======================================================================


                         QUESTIONS AND ANSWERS

                             JUNE 21, 2011



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] 71633.009

[GRAPHIC] [TIFF OMITTED] 71633.010

[GRAPHIC] [TIFF OMITTED] 71633.011

[GRAPHIC] [TIFF OMITTED] 71633.012

[GRAPHIC] [TIFF OMITTED] 71633.013

[GRAPHIC] [TIFF OMITTED] 71633.014

[GRAPHIC] [TIFF OMITTED] 71633.015

[GRAPHIC] [TIFF OMITTED] 71633.016

[GRAPHIC] [TIFF OMITTED] 71633.017

[GRAPHIC] [TIFF OMITTED] 71633.018


</pre></body></html>
